No. 19-465

In The Supreme Court Of The United States
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,

CERTIFICATE OF
SERVICE

v.
STATE OF WASHINGTON,
Respondent.
I hereby certify that:
1.

On April 1, 2020, the Brief For Respondent State of Washington was

served as follows:
2.

Three copies of the Brief were deposited in the United States Post Office,

Olympia, Washington 98504, with first-class postage prepaid, addressed to Counsel
listed on the attached service list.
3.

All parties required to be served have been served.

4.

I have caused forty copies of the Brief to be delivered to a commercial

carrier for delivery to the Court within two days.
5.

I am a member of the Bar of the Supreme Court of the United States.

DATED this 1st day of April 2020.
s/ Noah G. Purcell
Noah G. Purcell
Solicitor General
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

SERVICE LIST
COUNSEL FOR PETITIONERS No. 19-465:

L LAWRENCE LESSIG
EQUAL CITIZENS
12 ELIOT ST
CAMBRIDGE MA 02138

JONAH O HARRISON
ARÊTE LAW GROUP PLLC
1218 THIRD AVE STE 2100
SEATTLE WA 98101

SUMEER SINGLA – DANIEL A BROWN
– HUNTER M ABELL
WILLIAMS KASTNER & GIBBS PLLC
601 UNION ST STE 4100
SEATTLE WA 98101

